Before the Subcommittee on Transportation, Housing and Urban
Development, and Related Agencies
Committee on Appropriations
United States Senate


 For Release on Delivery
 Expected at
 9:30 a.m. EDT
                           Amtrak’s Future
                           Outlook and
 Thursday
 April 3, 2008
 CC-2008-061

                           Budgetary Needs

                           Statement of
                           David Tornquist
                           Assistant Inspector General
                           Rail and Maritime Program Audits and
                           Economic Analysis
                           U.S. Department of Transportation, Office
                           of Inspector General
Chairman Murray, Ranking Member Bond, and Members of the Subcommittee:

I appreciate the opportunity to present the views of the Office of the Inspector
General on Amtrak’s Fiscal Year (FY) 2009 financial needs and the future of
intercity passenger rail. My statement today will draw upon the work we have
ongoing for your subcommittee on Amtrak’s financial performance and labor
agreement costs, its efforts to achieve operating reform savings, and the causes of
its on-time performance (OTP) problems, as well as other work we have ongoing
on Amtrak’s capital plan.

Despite Recent Progress, Amtrak Still Faces Challenges. Once again, Amtrak’s
2007 ridership and ticket revenue records set new records. Amtrak also improved
its OTP on about two-thirds of its routes, implemented an expanded capital
program, and continued to pay down its debt. In addition, the labor agreement now
in the ratification process holds the promise of allowing both Amtrak management
and employees to focus on the business of running a passenger railroad.

At the same time, Amtrak is seeking to increase its Federal subsidy by 35 percent
in a very difficult budget environment while continuing to incur unsustainably
large and potentially growing operating losses. We believe Amtrak can do more
to minimize its costs and dependence on Federal subsidies and that its spending
initiatives need to make a demonstrable contribution to its bottom line.

Amtrak Requires a Modest FY 2009 Funding Increase. We believe that
Amtrak’s FY 2009 legislative and grant request understates Amtrak’s likely
FY 2009 revenues, overstates its costs, and ignores its significant cash balance.
As a result, we believe that Amtrak needs $475 million in FY 2009 for operations,
$675 million for capital, and $266 million for debt service. Furthermore, the
FY 2009 share of retroactive wages included in the pending labor agreement 1 can
be accommodated within Amtrak’s projected cash balances without additional
appropriations.

Our recommended operating grant level would allow Amtrak to operate a
nationwide system. When combined with Amtrak’s likely increase in FY 2009
revenues, our recommendation would cover an approximately 3.5 percent increase
in Amtrak’s operating expenses. Regarding these revenues, we believe that
Amtrak’s forecast is understated because it was arbitrarily reduced below the
levels projected by its econometric models. The expense forecast is likely
overstated because it includes the cost of significant hiring in FY 2008 and 2009

1
    This agreement would grant full retroactive pay raises back to 2002 to all agreement employees onboard
    on December 1, 2007. The payment would be split, with 40 percent being paid in FY 2008 and
    60 percent in FY 2009.
                                                                                      2


and other cost increases which Amtrak need not incur, and no additional
operational reform savings.


                         Table 1. Federal Appropriations
                    FY 2007                  FY 2008                       FY 2009
($ in millions)
                  Appropriated    Appropriated   Forecasted Use   Request     Recommend
Operating               $485             $475            $454       $525             $475
Capital                   495             565             564        801              675
Debt service              277             285             285        345             266
Retroactive
wages for labor                                                      114                  0
settlement
Total                  $1,257           $1,325         $1,303     $1,785        $1,416
Source: Amtrak data and OIG analysis.

The $675 million for capital would allow Amtrak to fund legal, safety, and
security requirements and continue to make progress towards a “state of good
repair”. The $266 million for debt service is the minimum needed to fund
Amtrak’s FY 2009 debt obligations. Amtrak’s proposal to pay off debt early is
linked to a plan to borrow funds in the future for rolling stock replacement.
However, significant issues still need to be resolved regarding states’ willingness
to pay the full costs of state services not covered by ticket revenues which may
impact the overall demand for new rolling stock.

Finally, Amtrak could fund the unbudgeted $114 million in FY 2009 retroactive
wage costs and $11.3 million in other planned pay–related costs within its
anticipated $269 million end of FY 2008 cash balance. The resulting $119 million
cash balance would be less than Amtrak’s preferred $150 million level, but
consistent with the $103.9 million cash balance that would have resulted in
FY 2007 from Amtrak’s spending decisions.

Achieving Reliable On-Time Performance Could Substantially Improve
Amtrak’s Finances. We recently reported that improving OTP to 85 percent on
all routes outside the Northeast Corridor in FY 2006 would have generated a net
gain of $136.6 million for Amtrak. However, there is little agreement between
Amtrak and the host railroads on whose track Amtrak operates regarding the cause
of this poor OTP, and, therefore, no consensus on how to improve it.

In work we have ongoing at the request of this subcommittee, we have found that
Amtrak trains are delayed by insufficient track capacity; host railroad operating
                                                                                                         3


practices, including dispatching; and external factors beyond the host railroads’
control, such as weather and derailments. Amtrak’s data on delays does not allow
us to quantify the relative share each cause contributes to delay. Disagreement
also exists regarding the precise nature of Amtrak’s right to “preference over
freight transportation in using a rail line, junction, or crossing”. 2 We believe the
issue of improving Amtrak’s OTP can best be addressed through collaboration
between Amtrak, the host railroads, and the executive branch which balances the
enforcement of rights with incentives for cooperation. The state capital matching
grant program can play an important role in this effort.

Reauthorization Remains Key to Amtrak’s Long-Term Outlook. As we have
testified previously, we believe that Amtrak’s long-term outlook would be
improved through a reauthorization that focused on three goals: (1) continuous
improvements in the cost-effectiveness of services provided, (2) devolution of the
power to determine those services to the states, and (3) adequate and stable
sources of Federal and state funding.

Absent a reauthorization, it will continue to fall to the Appropriations Committee
to maintain fiscal discipline at Amtrak while providing the tools to improve their
performance. At the same time, as we reported last year in our audit of the Amtrak
Board’s activities, the Board plays a key role in setting a strategic direction for
Amtrak within the statutory parameters set by Congress. The Board and Amtrak
management currently are developing a new strategic plan, which, if accompanied
by implementation plans, will be very helpful in guiding Amtrak’s decision
making.

I will now discuss these issues in greater detail.

Despite Recent Progress, Amtrak Still Faces Challenges

Operating Losses

Amtrak ended FY 2007 with a net operating loss of $1.0 billion and a cash
operating loss, excluding interest and depreciation, of $486.3 million. 3 Amtrak
currently projects a cash operating loss of $454.3 million in FY 2008,4 $21 million
below its original budgeted loss, and $525 million in FY 2009. The increase in


2
    Section 24308c of Title 49 of the United States Code.
3
    Amtrak’s FY 2007 cash operating loss includes $190 million in accrued expenses from the pending labor
    settlement.
4
    Amtrak originally budgeted for a $475 million cash operating loss in FY 2008. However, based on
    actual revenues and expenditures through January, this loss has been revised downward by $21 million to
    $454.3 million.
                                                                                                                   4


FY 2009 is due largely to fuel, benefits, and labor settlement costs, and the impact
of a projected economic slowdown on revenues.

 Figure 1. Amtrak’s Operating and Cash Losses and Cash Balances



                    1400

                    1200

                    1000
    $ in Millions




                    800

                    600

                    400

                    200

                      0
                            2002          2003         2004          2005           2006          2007      2008
                                               Operating Loss     Cash Loss       Cash Balance
                Note: Cash loss is measured on an earnings before interest, taxes and depreciation basis.

Source: Amtrak.

Based on the information available today, we believe Amtrak could manage with
$475 million for its FY 2009 operating subsidy instead of the $525 million
requested. We differ with Amtrak’s estimates of likely FY 2009 revenues,
expenses, and operating reforms. Our recommended operating grant level would
provide Amtrak with an increase of almost $100 million and cover an
approximately 3.5 percent increase in operating expenses as a result of likely
revenue increases. We strongly urge the Subcommittee to reexamine Amtrak’s
funding requirements after Amtrak completes its more detailed, bottom up budget
projection in July.

We are concerned about the seemingly arbitrary manner in which Amtrak
management revised its FY 2009 revenue estimates developed using their
econometric models to reflect a potential recession. While we understand the
desire to be conservative in light of economic uncertainty, we believe that the tight
budget environment calls for a more scientific and supportable approach to
revenue forecasting.

In this regard, we note that both the Federal Reserve’s Federal Open Market
Committee and the Blue Chip consensus forecast call for economic growth in
FY 2009 at a level commensurate with that in FY 2007, not a decline as Amtrak
projects. Growth in the gross domestic product, a measure of overall economic
                                                                                   5


activity, began to slow in 2007, and projected to slowdown further in 2008 before
picking up in 2009. Despite the current slowdown, Amtrak’s FY 2008 passenger
related revenues are projected to be $170 million above FY 2007 and $71 million
above the level Amtrak originally projected in its FY 2008 budget.


                         Figure 2. Amtrak’s Passenger Related Revenues

                     12.0%
                                                    10.5%
                                            10.1%
                                                            9.7%
                     10.0%


                     8.0%
    Percent Change




                     6.0%

                                                                       4.2%
                             3.9%
                     4.0%


                     2.0%


                     0.0%
                             2004   2005    2006    2007    2008       2009
                                    -1.1%                   Forecast    Forecast
                     -2.0%


Source: Amtrak.

In addition, we believe that Amtrak should take a more restrained approach
regarding expenditures given the large uncontrollable cost increases Amtrak
anticipates for wages, benefits, and fuel costs. Amtrak’s budget estimates
anticipates hiring about 200 employees which might be aggressive considering the
tight budget environment. Finally, since Amtrak forecasts its FY 2008 cash
operating loss will be about $21 million below the amount it used as a starting
point to build its FY 2009 request, its FY 2009 expenses are likely to be less than
reflected in Amtrak’s budget request.

Finally, Amtrak anticipates achieving no savings from operating reforms in
FY 2009. Amtrak saved $61.3 million from operating reforms in FY 2006,
$52.8 million in FY 2007, and anticipates saving $40.3 million in FY 2008. The
current estimate of FY 2008 savings is just half of the amount Amtrak originally
anticipated it would save. The Amtrak Board of Directors, in the FY 2008 Action
Plan, established as one of its seven corporate goals, to “contain cost growth
through productivity and efficiency improvements”. We strongly support this goal
and believe it should be reflected in the FY 2009 budget.
                                                                                  6


As shown in Table 2, Amtrak anticipates achieving $17.0 million in FY 2008
savings through revenue enhancements and $23.3 million through expense
reductions. The revenue enhancements include improvements to both Acela and
long-distance services and additional food and beverage sales. The expense
reductions include reducing energy costs, increasing use of credit cards on-board
trains, and implementing several productivity improvements in Amtrak’s
Environment, Transportation, Mechanical, and Engineering departments. Through
January, Amtrak has achieved $6.3 million of these projected savings.


       Table 2. Amtrak’s FY 2008 Cost Savings From Reform

                                                 Budget    Actual       YTD
($ in millions)                        Annual     YTD       YTD        Variance
Revenue Enhancements                    $17.0      $4.5       $4.4       $(0.1)
  Food and Beverage                        0.9       0.9       0.5        (0.4)
  Overhead Functions                       2.4       0.4       0.4          0.0
  Customer Service                         1.3       0.4       0.9          0.5
  Marketing and Sales                      1.8       1.2       0.2        (1.0)
  NEC Operations                           7.6       1.4       2.3          0.9
  Long Distance Services                   3.2       0.2       0.2          0.0
Expense Reductions                        23.3       5.3       1.9        (3.4)
  Mechanical                             (7.2)     (2.1)     (1.7)          0.4
  Overhead Functions                     11.0        0.7     (0.1)        (0.8)
  Customer Service                       17.7        6.2       4.9        (1.3)
  Ongoing Efficiencies                     1.8       0.5     (1.2)        (1.7)
Total                                   $40.3       $9.8      $6.3       $(3.5)
Columns may not sum due to rounding.
Source: Amtrak.

Labor Settlement Costs

Amtrak anticipates the FY 2008 and FY 2009 cost of the labor agreement
currently in the ratification process will be $412.2 million for both the operating
and capital accounts. As shown in Table 3, Amtrak’s estimate of $148.9 million
in FY 2008 costs includes $52.4 million for the prospective FY 2008 pay raise,
$94.4 million for the FY 2008 share of the retroactive FY 2002-2008 pay raise,
and $2.1 million for management pay raises to supervisors to maintain an
appropriate pay differential relative to their employees. The $263.3 million in FY
2009 costs include $117.4 million for the prospective FY 2009 pay raise, $141.6
million for the FY 2009 share of the retroactive pay raise, and $4.3 million for
management pay raises.
                                                                                                              7


We believe that Amtrak does not require a separate $114 million appropriation in
FY 2009 to cover the partial costs of the retroactive wages resulting from the
pending settlement ratification. Based on actual revenues and expenditures
through January, Amtrak forecast that its cash balance at the end of FY 2008
would be $268.7 million. According to Amtrak, paying off the unbudgeted labor
settlement costs would reduce this cash balance to $118.7 million. While this cash
balance is below the $150 million level Amtrak stated they prefer to have on hand,
it is 14 percent more than the $103.9 million cash balance that would have resulted
in FY 2007 from Amtrak’s spending decisions. Amtrak is currently refining these
estimates as it determines the amounts due on an employee-by-employee basis.


                   Table 3. Estimated Labor Settlement Costs
                                                              Due in              Due in
    ($ in millions)                                                                                 Total
                                                              FY 2008            FY 2009
    Retroactive Wage Payment (2002-2008)                         $94.4             $141.6           $236.0
    Management Pay Raise                                              2.1               4.3             6.4
    Prospective Pay Raises                                           52.4            117.4           169.8
    Total                                                         $148.9            $263.3          $412.2
Source: Amtrak.

Capital

Amtrak’s infrastructure continues to suffer from the effects of years of
underinvestment, and its estimated backlog of infrastructure projects needed to
attain a “state of good repair” 5 is $4.8 billion. The $675 million recommended for
capital would allow Amtrak to fund legal, safety, and security requirements and
continue to make progress to achieving a “state of good repair”.

Amtrak initiated a new capital planning process in FY 2008 that prioritizes capital
projects across different departments. We believe this planning process is an
important step forward. As it matures, we would like to see greater reliance on
return on investment analyses for projects, when appropriate. This analysis would
facilitate the comparison and prioritization of projects and would demonstrate how
projects contribute to meet Amtrak’s business goals, i.e., increasing ridership and
revenues, reducing costs, improving OTP, and reducing trip times.



5
    Amtrak uses a component life cycle replacement approach to defining “state of good repair”. Amtrak
    defines being in a “state of good repair” when each of its infrastructure assets is maintained and replaced
    within the design life of that component.
                                                                                  8


Debt Service

The $266 million for debt service is the minimum needed to fund Amtrak’s
FY 2009 obligations. This amount reflects Amtrak’s minimum debt payment
schedule adjusted for Amtrak’s pre-payment of the $21 million on its Railroad
Rehabilitation and Improvement Financing (RRIF) loan. Amtrak’s proposal to
pay off debt early is based on the economic benefits of paying off higher interest
debt and a desire to reduce its overall debt burden to facilitate new borrowing in
the future for rolling stock replacement.

We have previously testified that from an economic standpoint, the taxpayer
would benefit by the Federal government paying off Amtrak’s $3.3 billion in long
term debt and capital lease obligations. Currently, this debt is being paid off with
Federal appropriations. Because portions of Amtrak’s debt were financed at
higher interest rates than what the Federal government can borrow, it would be
less costly for the Federal government to payoff the entire debt at once. However,
in this tight budget environment, we believe Amtrak has higher funding priorities
at this time than repaying debt, such as infrastructure investment.

In addition, significant issues still need to be resolved which will affect Amtrak’s
rolling stock needs. In particular, Amtrak needs to develop a more equitable
method of charging states for state corridor services and determine whether the
states will pay the fully allocated operating costs and, over time, a growing
contribution to capital costs for new and existing service. In addition, the higher
labor rates resulting from the pending labor agreement will increase state costs and
may affect their willingness to pay for current services, let alone expand into new
services. The impact these issues will have on states’ demand for new service and
the need for additional rolling stock needs to be incorporated into a comprehensive
fleet plan.

Revenue and Ridership

Passenger revenues increased to a peak level of $1.52 billion in FY 2007,
primarily as a result of revenues from Acela service that were $56.7 million above
budget projections. Amtrak attributed increases in Acela revenues and ridership to
reduced trip times, improved OTP, deteriorating airline service, increased highway
congestion, and higher gasoline costs. Systemwide ridership increased to
25.8 million in FY 2007. For the first 4 months of FY 2008, passenger revenues
were $71.1 million higher than the same period in FY 2007, supported by strong
demand for corridor trains, particularly for Acela and Regional services.
Ridership grew 11.2 percent during this period.
                                                                                                                     9



                               Figure 3. Amtrak Passenger Revenue and Ridership

                            1,750                                                     26




                                                                                           Ridership (millions) 11
                            1,500                                                     24
    Revenue ($ millions))




                            1,250                                                     22



                            1,000                                                     20



                             750                                                      18
                                    2002   2003    2004     2005        2006   2007

                                                  Revenue   Ridership


Source: Amtrak.

Achieving Reliable On-Time Performance Could Substantially
Improve Amtrak’s Finances

Amtrak’s OTP had been declining steadily since FY 2002, from 77 percent to
68 percent in FY 2006. However, the OTP increased in FY 2007 to 69 percent
and to 72.7 percent through January 2008. In FY 2006, average OTP across
Amtrak’s long-distance routes was only 30 percent. For Amtrak’s corridor routes,
average OTP was much higher, but still only 67 percent (excluding the NEC). In
FY 2007, the OTP of a number of long-distance routes increased substantially, but
only enough to raise the average for long-distance routes to 42 percent. Through
January 2008, long-distance OTP increased to 59.7 percent.

We recently reported that improving OTP to 85 percent on all routes outside the
Northeast Corridor (NEC) in FY 2006 would have generated a net gain of
$136.6 million for Amtrak. This total net gain includes increased Amtrak revenues
of $111.4 million and reduced fuel and labor costs of $39.3 million. Revenue
would increase as customers become more confident in Amtrak’s ability to arrive
on time. Labor expenses would be reduced in part by fewer overtime hours
required to staff late trains. Fuel costs would also fall with a reduction in delays as
less time would be spent idling or accelerating and decelerating. The improved
OTP would also require an increase in net performance payments paid to the host
railroads. We estimated these would total $14.1 million. Achieving an OTP of
75 percent outside of the NEC in FY 2006 would have generated a net gain of
$122.1 million and an OTP of 100 percent would have generated a net savings of
                                                                                   10


$136.4 million. This latter estimate reflects higher performance payments that
exceed the revenue increase and cost reductions.


                  Figure 4. Average OTP of Amtrak Routes


       100%

       80%

       60%
 OTP




       40%

       20%

        0%
              2001      2002      2003      2004       2005     2006      2007
                                         Fiscal Year

                     NEC          Long-Distance          Non-NEC Corridor

Source: Amtrak.

However, there is little agreement between Amtrak and the host railroads on
whose track Amtrak operates regarding the cause of this poor OTP, and, therefore,
no consensus on how to improve it. In work we have ongoing at the request of this
subcommittee, we have found that Amtrak trains are delayed by insufficient track
capacity; host railroad operating practices, including dispatching; and external
factors beyond the host railroads’ control, such as weather and derailments. The
available data does not allow us to quantify the relative share each cause
contributes to delay.

The capacity of the freight rail network is insufficient to handle the mix of fast
(passenger and inter-modal freight) and slow (bulk commodity freight) trains
operating according to different business models, i.e., scheduled versus
unscheduled or loosely scheduled service. In this network, passenger trains
frequently catch up with slower moving freight trains, or other passenger and
commuter trains. In addition, most Amtrak trains outside the NEC operate over
single tracks with bi-directional traffic, which requires trains to be held on sidings
until they can pass each other. Capacity is also reduced by temporary speed
restrictions, or slow orders.
                                                                                    11


Host railroad operating and dispatching practices also can delay Amtrak trains.
Dispatch operations are focused on maintaining network fluidity, sometimes at the
expense of Amtrak’s OTP. It is difficult to determine how individual dispatching
decisions impact delays simply by observing day-to-day dispatching operations.
Nevertheless, we found certain practices intentionally delay Amtrak trains. In
addition, a lack of management attention by a host railroad to Amtrak’s
performance can increase delays. Amtrak and the host railroads largely attribute
recent OTP improvements on the Auto Train and other Florida services, the
California Zephyr, Crescent, Capitol Limited and Lake Shore Limited trains to
more focused and cooperative management efforts. Each of these root causes
contributes to Amtrak’s delays, often in combination with each other. As delays
accumulate, it can be difficult to separate the relative impact from each other.

Disagreement also exists regarding the precise nature of Amtrak’s right to
“preference over freight transportation in using a rail line, junction, or crossing”. 6
Amtrak views the legislation as granting an absolute right to run unimpeded on the
freight network and, as such, considers all freight train interference a violation of
its right of preference. In Amtrak’s view, host railroads need to proactively
manage operations on their rail lines to avoid interference-related delays. The host
railroads we met with did not offer us a legal definition of preference, but
generally viewed their responsibility to grant preference relative to their ability to
manage congestion levels and maintain “fluidity” in the overall system.

We believe the issue of improving Amtrak’s OTP can best be addressed through
collaborative interactions between Amtrak, the host railroads, and the executive
branch which balances the enforcement of rights with incentives for cooperation.
The state capital matching grant program can play an important role in this effort
in terms of providing an incentive to freight railroads for cooperation. In addition,
the quarterly reporting requirements regarding host railroad OTP Congress
established last year will also focus the Department and host railroad
management’s attention on this issue.

Reauthorization Remains Key to Amtrak’s Long-Term Outlook

As we have testified previously, we believe that Amtrak’s long-term outlook
would be improved through a reauthorization that focused on three goals:
(1) continuous improvements in the cost-effectiveness of services provided,
(2) devolution of the power to determine those services to the states, and
(3) adequate and stable sources of Federal and state funding.



6
    Section 24308c of Title 49 of the United States Code.
                                                                                  12


Absent a reauthorization, it will continue to fall to the Appropriations Committee
to maintain fiscal discipline at Amtrak while providing the tools to improve their
performance. At the same time, as we reported last year in our audit of the Amtrak
Board’s activities, the Amtrak Board of Directors plays a key role in setting a
strategic direction for Amtrak within the statutory parameters set by Congress. The
previous Board set a strategic direction for Amtrak with its April 2005 Amtrak
Strategic Reform Initiatives and FY 2006 Legislative Grant Request. However,
this plan’s broad long-term objectives were not fully translated into a detailed plan
with outcomes, milestones, and performance measures. As a result, the Board and
Amtrak management lacked a comprehensive standard against which to evaluate
how Amtrak’s day-to-day activities are addressing the Board’s strategic vision for
Amtrak.

The current Board and Amtrak management are developing a new strategic plan,
which if accompanied by implementation plans, will be very helpful in guiding
Amtrak’s decision making.

Madam Chairman, this concludes my statement. I would be happy to answer any
questions at this time.
                                                                          13


Addendum:


The following 2 pages contain textual versions of the graphs and charts
contained in this document. These pages were not a part of the original
document but have been added here to accommodate assistive
technology.

Figure 1:Operating and Cash Losses and Cash
Balances FY 2002 - FY 2008 (Amtrak Data)
           Operating      Cash      Cash
           Loss           Loss      Balance
     2002           1132        497                    169
     2003           1274        496                    182
     2004           1308        486                    247
     2005           1192        450                    138
     2006           1068      452.3                    215
     2007           1019      486.3                    244

     2008
(forecast)              1104        454.3            268.7
                                                                               14


Figure 2: Amtrak’s Passenger Related Revenues
Percentage Change in Passenger Related Revenues (from previous year)
for Fiscal Year 2004 through Fiscal Year 2009 (Amtrak data)

Fiscal Year                Percent Change in Passenger
                           Related Revenues (from
                           previous year)
2004                                    3.9 %
2005                                    -1.1%
2006                                    10.1%
2007                                    10.5%
2008 Forecast                            9.7%
2009 Forecast                            4.2%

Note: The percentage change in Amtrak’s passenger related revenues for
Fiscal Year 2008 and 2009 are based on forecasted numbers.



Figure 3. Passenger Revenues and Ridership Fiscal Year 2002 through
Fiscal Year 2007 (Amtrak data)


     Year          Revenue           Ridership
     2002        1.340 billion      23.3 million
     2003        1.261 billion      24.0 million
     2004        1.311 billion      25.0 million
     2005        1.295 billion      24.0 million
     2006        1.426 billion      24.3 million
     2007        1.519 billion      25.8 million



 Figure 4. Average On-Time Performance of Amtrak Routes FY 2001 to FY 2007
                                  (percent)

                                                   Fiscal Year
                           2001    2002    2003        2004     2005    2006     2007
 NEC                      83.76   85.52   79.29       75.78    78.17   81.00    85.51
 Long-Distance            54.38   49.51   50.84       42.56    41.38   29.99    41.60
 Non-NEC Corridor         73.25   75.49   75.65       73.51    70.44   67.33    65.50
Source: Amtrak
NEC: Northeast Corridor
